 Office of Inspector General
     Audit Report


 FHWA IS MONITORING UNEXPENDED
RECOVERY ACT HIGHWAY FUNDS, BUT
 SOME FUNDS MAY REMAIN UNUSED
      Federal Highway Administration

       Report Number: MH-2013-122
      Date Issued: September 4, 2013
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FHWA Is Monitoring Unexpended                                        Date:    September 4, 2013
           Recovery Act Highway Funds,
           but Some Funds May Remain Unused
           Federal Highway Administration
           Report Number MH-2013-122

  From:                                                                              Reply to
           Joseph W. Comé                                                            Attn. of:   JA-40
           Assistant Inspector General for
             Highway and Transit Audits

    To:    Federal Highway Administrator

           The American Recovery and Reinvestment Act of 2009 1 (ARRA) provided
           $27.5 billion for investments in highway infrastructure projects nationwide. The
           Federal Highway Administration (FHWA) is responsible for overseeing this
           investment, which included $26.1 billion in Highway Infrastructure Investment
           Grants (highway projects). FHWA issued guidance on ARRA within weeks of the
           law’s passage, and as of April 17, 2013, about 96 percent of these funds have been
           expended. As part of our ongoing ARRA oversight, we examined the status of any
           remaining unexpended ARRA highway project funds and whether States can use
           them to the fullest extent before the time period for spending the funds expires
           after September 30, 2015. 2 At the end of fiscal year 2012, States had unexpended
           ARRA funds of approximately $1.5 billion from ARRA obligations for highway
           projects and $155 million in de-obligations, or “recovered” funds, from ARRA
           projects. 3

           Our objectives were to assess FHWA’s controls for monitoring unexpended funds;
           determine whether FHWA’s policies, procedures, and management activities
           result in the prompt, appropriate use of unexpended ARRA funds; and identify
           unexpended funds at risk of not being spent by final deadlines. Specifically, we
           are reporting on (1) whether FHWA has taken adequate actions to monitor
           1
             Pub. L. No 111-5 (2009).
           2
             States were required to obligate all ARRA funds to highway projects by September 30, 2010. FHWA classified any
           funds de-obligated after September 2010 as “recovered” funds.
           3
             As of August 1, 2013, unexpended funds obligated to ARRA highway projects have decreased to about $539 million
           and recovered funds not obligated to projects increased to over $269 million.
                                                                                                                2


remaining unexpended ARRA funds and (2) the impact of FHWA’s policies and
procedures on the use of recovered ARRA funds. We conducted this audit
between July 2012 and June 2013 in accordance with generally accepted
Government auditing standards. As part of this audit we selected a statistical
sample of 70 of 3,346 ARRA highway projects with unexpended ARRA Highway
Infrastructure Investment Grant obligations as of September 30, 2012, to project
the amount of potential future recovered funds. Exhibit A details our scope and
methodology, including the basis for the statistical projection used to estimate the
amount of future ARRA recovered funds that will remain unused.

BACKGROUND
In 2009 ARRA established aggressive deadlines for FHWA to distribute ARRA
highway funds and formulate policies on the new requirements. ARRA made
highway funds available for States to obligate to projects through
September 30, 2010, and FHWA met the tight deadline to obligate them. After that
date, ARRA funds recovered by FHWA cannot be used on new highway projects
but are available to cover additional project costs (upward adjustments) on
existing ARRA projects until September 30, 2015. Further, FHWA has
implemented a deadline of September 30, 2013, to complete most of the remaining
ARRA projects in response to an Office of Management and Budget
memorandum, which encouraged agencies to accelerate their spending of
remaining ARRA funds. 4

ARRA funds may be recovered from State highway projects for various reasons.
For instance, recovered funds may occur when the amount a State estimated for
project cost, used to establish the original obligation of Federal funds, was more
than the actual project costs. A State can only use recovered funds to cover
additional project costs that are within the scope and purpose associated with the
original approved ARRA work (qualified cost increases). As a result, even though
States are recovering funds, they may not have an eligible use under Federal law,
and those funds could go unused. Also, the State must be granted authority from
FHWA to obligate the funds. According to FHWA’s August 26, 2010 policy,
States’ authority to obligate recovered funds for “legitimate” upward adjustments
for all its ARRA projects and programs is limited to $25 million per fiscal year
nationwide, with each State having a pro rata share based on its percentage of
ARRA funds initially apportioned to States and program offices.5




4
    Office of Management and Budget Memorandum M-11-34, September 15, 2011.
5
    FHWA policy, “Availability of American Recovery and Reinvestment Act of 2009 Appropriations,” August 26, 2010.
                                                                                                                    3


FHWA’s policy further limited the States’ authority to obligate recovered funds by
ARRA funding categories (represented by program codes). 6 Consequently, in
fiscal year 2011 if a State needed more recovered funds on a project than the
program code obligation authority allowed, recovered funds would go unused. On
February 14, 2012, FHWA amended this policy to allow States the flexibility to
obligate recovered funds from any program code, as long as the funds are
available, the project is eligible, and the State fiscal year limitation on obligating
recovered funds is not exceeded.

FHWA’s policy also established a multi-level approval process for States to use
recovered ARRA funds. Before the State can obligate its recovered funds, the
policy requires States to submit a written application for the use of recovered
funds on a specific project. The Division Office and FHWA’s Office of the Chief
Financial Officer (OCFO) must review and approve the application.

RESULTS IN BRIEF
FHWA has taken adequate actions to monitor remaining obligated unexpended
ARRA funds. FHWA’s actions included adopting practices beyond its normal
oversight activities, such as increasing the amount of data it collects and uses on
unexpended funds. FHWA Headquarters tracks ARRA expenditures, recoveries,
and project close-outs and distributes weekly status reports to the Division Offices
for their use. Additionally, individual Division Offices are also tracking
expenditures at a more detailed level and regularly meeting with their State
counterparts to investigate the status of ARRA highway projects. For example,
FHWA’s Virginia Division Office developed weekly spreadsheets on ARRA
highway project expenditures and inactive projects, projected anticipated
expenditures, and established a target date for expending funds.

Due to Federal restrictions and FHWA policy on the uses of recovered ARRA
funds, some highway funds could remain unused when ARRA concludes. We
estimate that under current requirements $356 million in recovered funds could
remain unspent. 7 Federal restrictions, such as legal limits on obligating recovered
funds for new projects, contribute to the amount of unused recovered funds.
Another reason is FHWA’s nationwide $25 million limit on obligating recovered
ARRA funds for qualified cost increases per fiscal year, which restricts each State
6
  The State’s share of the nationwide obligation limit of recovered funds for highway projects is further divided into
“program codes” that correspond to ARRA funding requirements, such as an ARRA requirement to use 3 percent of
ARRA funds for State transportation enhancement activities.
7
  Our $356 million estimate includes approximately $155 million of net recovered funds that were de-obligated from
highway projects as of September 30, 2012, less $75 million in authority FHWA has provided to States to obligate
recovered funds in fiscal years 2013 through 2015, and an additional $276 million we project States may recover in
future years. Our future estimate is based on a statistical sample of 70 from 3,346 ARRA highway projects with
unexpended ARRA funds in 9 of 49 States. Our $276 million estimate, which is 18.4 percent of the $1.5 billion of the
unexpended amount in our universe, has a precision of plus or minus $29 million at the 90-percent confidence level.
                                                                                     4


to using a share of the total national limit. Mississippi, for example, identified over
$2 million in qualifying cost increases above its fiscal year share of the national
limit and therefore was unable to fully utilize its recovered funds. FHWA has
additional actions at its disposal for reducing barriers on the use of recovered
ARRA funds, such as obtaining more complete data on States’ qualified cost
increases, and in the past it has revised policies and procedures to provide States
with more flexibility to use recovered funds.

We are making recommendations for FHWA actions that could provide States
with more opportunities to use their recovered ARRA funds.

FHWA HAS TAKEN ADEQUATE ACTIONS TO MONITOR
UNEXPENDED ARRA FUNDS
FHWA’s policies, procedures, and management activities are adequate to monitor
the status and remaining amount of unexpended ARRA funds. FHWA actions
include adopting practices beyond its normal oversight activities, such as
increasing the type of data it collects and uses to track States’ use of the funds.
FHWA Headquarters tracks ARRA expenditures, recoveries, and project close-
outs on a State level and distributes a weekly status report to the Division Offices.

The three Division Offices we reviewed also produce status reports containing
project-specific unexpended obligations and discuss with their State counterparts
the status of projects with unexpended obligation balances. For example:

 • FHWA’s Connecticut Division Office produced in-house reports on ARRA
   expenditures by project and identified “outlier” highway projects with a low
   percentage of expended ARRA funds. The Division Office also regularly met
   with their State counterparts to discuss the status of specific ARRA projects.

 • The Virginia Division Office developed weekly spreadsheets on ARRA
   highway project expenditures and inactive projects, projected anticipated
   expenditures, and established a target date for expending the funds. The
   Division Office provided this information to the Director of Field Services
   (DFS). The office also tracked actual expenditures versus projected
   expenditures and met bi-weekly with State counterparts to discuss project
   status, ARRA-specific issues, and inactive ARRA highway projects or projects
   slowly expending ARRA funds.

 • FHWA’s Oklahoma Division Office met regularly with its State counterparts
   and produced spreadsheets tracking ARRA highway projects with unexpended
   obligations. If the Division Office identified a project that was lagging in
                                                                                   5


   expenditures, it performed follow-up inquiries with the project’s manager to
   determine the cause and whether the project could be moved along.

ARRA HIGHWAY FUNDS MAY REMAIN UNUSED WHEN ARRA
CONCLUDES
While FHWA has adequate actions to monitor unexpended ARRA funds, under
current requirements for the use of recovered funds, we estimate that about
$356 million in recovered ARRA highway project funds could remain unused
when the program concludes in fiscal year 2015. Factors outside of FHWA’s
control, such as Federal restrictions on the use of the funds, impact the amount of
funds that may remain unused. FHWA’s nationwide $25 million fiscal year
limitation on obligating recovered funds, which prevents States from using their
funds when qualified cost increases exceed this limitation, is also a contributing
factor. In fiscal year 2012, FHWA amended its policies and procedures for
managing recovered ARRA funds, which gave States more flexibility to use
recovered funds than they had in fiscal year 2011. However, additional FHWA
actions, such as obtaining more complete data on States’ qualified cost increases,
could make more recovered funds available to States.

ARRA Recovered Funds Remain Unused Due in Part to FHWA’s
Limitations on Obligating Recovered Funds
ARRA recovered funds remain unused primarily for two reasons. First, recovered
ARRA funds remain unobligated because by law States cannot use them to fund
new ARRA highway projects. Second, FHWA’s annual $25 million national
limitation on obligating recovered funds—which is not an ARRA statutory
requirement—has hindered States’ ability to maximize their recovered ARRA
funds.

To assess the impact of FHWA’s policy, we interviewed State Transportation
officials in 9 of 43 randomly selected States that had unobligated recovered funds.
Officials for 6 of the 9 States stated that without the fiscal year limitation on
obligating recovered funds they would have been able to use more of their ARRA
recovered funds for qualified cost increases. For example, in fiscal year 2012
Mississippi identified $2.7 million in qualified cost increases on an ARRA
highway project but only requested to use $322,800 of its recovered funds on the
project because the State had reached its limit. Although later in the year FHWA
provided Mississippi with additional authority to obligate recovered funds up to
$542,935, the increase was not enough to fully fund the qualified cost increases on
the particular project. As a result, the limitation contributed to Mississippi having
more than $5 million in recovered funds not used by the end of fiscal year 2012.
                                                                                                                 6


Exhibit B lists the States with recovered funds not obligated as of
September 30, 2012, and States’ future authority to obligate recovered funds.

As a result of Federal restrictions and FHWA’s policies, about $356 million in
recovered ARRA highway project funds could remain unused when the program
concludes in fiscal year 2015. This determination is based on the actual amount of
recovered funds as of September 30, 2012, and our estimate of future unused
funds. FHWA had not obligated about $155 million of the $191 million in ARRA
funds recovered as of September 30, 2012, to highway projects. 8 Even if States
used all available authority to obligate recovered funds for qualified cost increases,
under FHWA policy, only $75 million of the $155 million already recovered and
not obligated could be used before ARRA ends in fiscal year 2015 ($25 million for
each of the next 3 fiscal years). In the future, the amount of unused recovered
ARRA funds will become even greater. Our statistical estimate shows the potential
for States to recover an additional $276 million from highway projects in future
fiscal years. 9 Table 1 shows the actual amount of recovered funds not obligated as
of September 30, 2012, and our estimate of recovered funds that will remain un-
obligated when ARRA concludes in fiscal year 2015.

Table 1. Remaining Highway Infrastructure Investment Grant
ARRA Recovered Funds

    Highway Infrastructure Investment Grant
    Recovered ARRA Funds                                                                             Amount
    Recovered Funds Not Obligated as of September 30, 2012                                       $155 million
    Plus – OIG Estimate of Future Recovered Funds
                                                                                                  276 million
    in Fiscal Years 2013 through 2015
    Minus – Maximum Amount of Recovered Funds States Can Obligate
                                      a                                                           (75 million)
    in Fiscal Years 2013 through 2015
    Estimated Unused Funds Remaining on September 30, 2015                                       $356 million
    Source: OIG Analysis and FHWA data.
    a
      Based on $25 million per fiscal year authority to obligate nationally.

Additional FHWA Actions Could Increase the Availability of
Recovered Funds
FHWA has revised its policies and procedures over time to provide States with
more flexibility to use recovered funds. For example, in fiscal year 2012, FHWA
Headquarters asked Division Offices to determine if States had qualified project

8
  We did not include $7.7 million in recovered ARRA funds pertaining to the Puerto Rico Highway Program, the
Territorial Highway Program, Highway Surface Transportation and Technology Training, Ferry Boat Development and
Federal Lands Highway. FHWA’s $25 million fiscal year obligation limitation includes about $728,000, or 3 percent,
for these programs.
9
  Our estimate of $276 million has a precision of plus/minus $29 million, at the 90-percent confidence level.
                                                                                                                     7


cost increases above their fiscal year 2012 pro rata share authority to obligate
recovered funds and enough recovered funds to benefit from additional authority.
FHWA also asked States and program offices to voluntarily relinquish unused
authority to obligate recovered funds for other States to use. However, we
identified the following additional actions FHWA has at its disposal that could
increase the availability of recovered ARRA funds:

FHWA can revise its ARRA recovered funds policy to be more precise.
FHWA’s policy has restricted the availability of recovered funds because it did not
precisely define which potential upward adjustments should be applied to the
$25 million fiscal year limitation, thereby reducing what could have been
obligated. We found that the basis for FHWA’s policy—31 U.S.C. § 1553(c)—
only requires that a limitation be applied to “contract changes,” defined as “a
change to a contract under which the contractor is required to perform additional
work.” 10 Our review identified upward adjustments included in the fiscal year
limitation that do not appear to be contract changes because they did not call for
additional work by the contractor. For example, FHWA applied the fiscal year
limit required for contract changes to an upward adjustment to correct the amount
initially obligated to a project due to a “human error.” FHWA also applied the
limit to an upward adjustment that corrected the difference between the original
Federal obligation made, based on the State’s projected contract cost, and the
actual amount for which the contract was ultimately awarded. Both instances did
not result in the need to modify a contract since the contractor was not performing
additional work. As a result, FHWA has reduced what additional funds could have
been obligated since upward adjustments not related to contract changes were
subjected to the $25 million fiscal year limitation.

FHWA’s policy also did not allow States to use ARRA recovered funds in two
categories of upward adjustments, even though these adjustments typically would
be eligible for Federal funding under 31 U.S.C. § 1553 (Availability of
Appropriation Accounts to Pay Obligations). FHWA’s policy states that recovered
ARRA funds cannot be used for “adjustments to pay claims, or increases under an
escalation clause.” 11 However, the basis upon which FHWA’s policy excluded
these adjustments does not render claims or increases under an escalation clause
ineligible for upward adjustments. Instead it specifies that they are not included as
a contract change subject to the $25 million fiscal year limitation. We are unaware
10
   FHWA stated that it based its August 26, 2010, policy on 31 U.S.C. § 1553(c)(2), which states that for a fixed
appropriation account (such as ARRA funds), if an obligation of funds from that account to provide funds for a
program, project, or activity to cover amounts required for contract changes would cause the total amount obligated
from that appropriation to exceed $25 million during a fiscal year, the obligation may not be made until the head of the
agency submits to Congress a notice in writing of the intent to obligate such funds and a period of 30 days has elapsed
after the notice is submitted.
11
   A claim results from a contractor seeking additional compensation on a highway project for costs not specified in the
contract. A contractor may also seek additional compensation on a highway project resulting from increases
(escalation) in commodity prices, such as increases in fuel costs, if allowed under the construction contract.
                                                                                    8


of ARRA requirements or other statutory requirements that result in these
adjustments being ineligible for recovered ARRA funds. By treating the
adjustments as ineligible, FHWA may have reduced the amount of additional
recovered funds that could have been available for ARRA projects.

Additionally, FHWA’s policy incorrectly applied the $25 million fiscal year
limitation to its entire ARRA appropriations account rather than to the programs
funded through the ARRA appropriation. The limitation in 31 U.S.C. § 1553(c),
on which FHWA based its policy, is triggered by contract changes exceeding
$25 million in a fiscal year in a program, project, or activity funded through the
appropriations account rather than the account itself. By incorrectly applying the
limitation to the entire ARRA appropriation account rather than the individual
programs funded through the account, such as the Indian Reservations Roads
program, States have less flexibility to use recovered funds before a notification is
required, should FHWA elect to do so. This is because the $25 million fiscal year
notification triggering amount will be reached faster than if the limitation was
applied elsewhere. Revising how FHWA applies the $25 million fiscal year
obligation limitation could make more recovered funds available before a
notification is required.

FHWA can obtain more complete data on qualified cost increases to
accurately determine States’ remaining needs for recovered funds. Although
FHWA is monitoring amounts of unexpended ARRA funds, complete data on
qualified cost increases would provide FHWA with a stronger basis to more
accurately establish whether States need more access to recovered funds now and
in the future and take appropriate actions. Currently, FHWA’s data are limited
because its policy does not encourage States to submit applications for all potential
qualified uses of recovered funds. Accordingly, FHWA lacks a clear picture of
States’ total need for recovered funds. FHWA told us that States have been asked
to submit all qualified cost increases regardless of their limitation on obligating
recovered ARRA funds. However, FHWA’s policy on its Web site, which States
and the public rely on for guidance when administering FHWA programs, shows
States are still required to submit applications that do not exceed their obligation
authority. State representatives we talked with believe this is the policy as well.

With an FHWA deadline of September 30, 2013, to complete most ARRA
projects, clarifying what data are needed is important to maximize States’ use of
recovered funds. Obtaining information from State applications or other sources
on qualified cost increases regardless of limitations provides FHWA with an
option to obligate most or all funds needed by the States. Under the law, the
$25 million fiscal year limitation on obligating recovered funds is only a
notification requirement and FHWA could exceed the annual fiscal year limit by
notifying Congress of its intent to do so, an action it has not elected to take in the
                                                                                    9


past. For instance, in fiscal year 2012, FHWA’s assessment showed that States
needed $22 million in authority to obligate recovered funds in addition to the
$25 million available to them. Notifying Congress at that time could have
provided States with more use of their recovered funds in fiscal year 2012. FHWA
stated that due to the conditions present at that time, it utilized its discretion and
elected to remain under the $25 million notification requirement in fiscal year
2012.

CONCLUSION
To meet a key ARRA goal of stimulating the U.S. economy through timely
investments in transportation projects, FHWA faces the ongoing challenge of
helping States fully utilize remaining unexpended ARRA funds. While the law
places limits on what States can do with ARRA funds after September 30, 2010,
FHWA can take actions to reduce administrative barriers, within the law, and
provide States with more opportunities to use recovered ARRA funds. In fiscal
year 2012, FHWA took actions to accomplish this and lessen the amount that
would remain when ARRA concludes. However, to ensure achievement of
ARRA’s economic recovery goals, it would be prudent for FHWA to explore
appropriate actions to make more unspent ARRA funds available to States.

RECOMMENDATIONS
We recommend the Federal Highway Administrator:

 1. Revise its August 26, 2010, policy regarding the treatment of recovered
    ARRA funds for upward adjustments to clearly state that (a) upward
    adjustments that do not constitute a contract change are not subject to the
    $25 million notification limitation, (b) pay claims and increases under
    escalation clauses are eligible for ARRA recovered funds, and (c) the
    $25 million limitation applies to the individual ARRA programs and not to
    the entire ARRA appropriations account.

 2. Implement a process to obtain more complete data and determine more
    accurately how much recovered funding States need in excess of the
    authority FHWA has provided to obligate recovered funds.
                                                                                10


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FHWA with our draft report on June 7, 2013, and received its
response on July 31, 2013. FHWA’s response is included in its entirety in the
appendix to this report. In its response, FHWA partially concurred with
recommendation 1 and concurred with recommendation 2.

Regarding recommendation 1, FHWA stated that its use of recovered ARRA funds
is discretionary and, while there may be alternative methods to implement it,
FHWA’s method was effective and in compliance with applicable guidance and
statute. Further, FHWA stated that revising its August 26, 2010, policy would
have limited material benefit, particularly at this late stage of ARRA. FHWA
provided an alternative action to our recommendation, stating that it would
continue to explore the implications of providing upward adjustments in excess of
$25 million. While we recognize that the treatment of recovered ARRA funds may
be within FHWA’s discretion, we maintain that once FHWA elected to allow the
use of these recovered ARRA funds, it needed to correctly apply the requirements
in 31 U.S.C. 1553. As we reported, FHWA has not fully complied with these
requirements. We request that FHWA provide additional information on its
proposed alternative action to explore the implications of providing upward
adjustments in excess of $25 million so that we can better assess whether the
action would meet the intent of our recommendation. Until we receive this
information, we consider recommendation 1 open and unresolved.

Regarding recommendation 2, FHWA stated that it implemented a process to
obtain more complete and accurate data from States and that it is evaluating
options to address the need for additional upward adjustments. We consider the
planned actions to be responsive. Accordingly, we consider this recommendation
resolved but open pending completion of the planned actions.

ACTIONS REQUIRED
In accordance with follow-up provisions in Department of Transportation Order
8000.1C, we request, for recommendation 1, that FHWA provide within 30 days
of this report additional information on its proposed alternative action to explore
the implications of providing upward adjustments in excess of $25 million, and for
recommendation 2, that FHWA provide our office with documentation that its
planned actions are complete within 10 days of their completion. Until we receive
this information, we consider recommendation 1 as open and unresolved and
recommendation 2 as resolved but open pending receipt of documentation.
                                                                             11


We appreciate the courtesies and cooperation of FHWA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-5630 or David Pouliott, Program Director, at (202) 366-1844.

                                       #

cc: DOT Audit Liaison (M-1)
    FHWA Audit Liaison (HAIM-13)
                                                                                 12




EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit from July 2012 through June 2013 in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To determine whether FHWA actions were adequate to monitor unexpended
ARRA funds on highway projects, we analyzed data from FHWA’s Fiscal
Management Information System (FMIS) and identified the amount of
unexpended funds by State and ARRA highway project. Based on the FMIS data,
we selected Oklahoma since it had a low percentage of unexpended funds and
randomly selected Connecticut and Virginia to interview officials from the
Division Office and State transportation offices, ascertained the status of specific
projects, and reviewed supporting documents. We also performed a statistical
sample of States and highway projects with unexpended ARRA funds to estimate
the amount of additional future recovered funds on highway projects nationally.

To estimate future recovered ARRA funds at the end of fiscal year 2015 when
ARRA concludes, our statistical sample was based on 3,346 highway projects with
$1.5 billion in unexpended ARRA funds we identified in FMIS as of
September 30, 2012. We selected a 2-stage stratified probability proportional to
size sample with replacement to estimate the amount of recoverable funds. We
first summarized unexpended amounts by State, which resulted in 49 of 50 States
with unexpended funds. In the first sample stage, we selected a sample of 10 states
with probability proportional to the unexpended amount. One state was selected
twice, which reduced our actual total sample size from 10 to 9 States. In the
second stage, we stratified by State and selected 7 ARRA projects with probability
proportional to a State’s unexpended amount from each stratum, for a sample of
70 projects totaling $450.8 million in unexpended funds. States then provided us
with their estimate of ARRA funds they anticipated recovering on the 70 projects
sampled. We found that 18 of the 70 statistically sampled projects had estimated
recovering funds in the amount of $7 million. Based on our findings, we estimated
with 90-percent confidence that the amount of estimated recoverable funds is
$276 million, or 18.4 percent, of the universe of $1.5 billion in unexpended ARRA
funds. Our estimate has a precision of plus or minus $29 million, or 2 percent,
which means our 90-percent confidence limits range from $246 million to
$305 million, or 16.4 percent to 20.3 percent.


Exhibit A. Scope and Methodol ogy
                                                                               13


To assess the impact of FHWA’s policies and procedures and Federal restrictions
had on the use of recovered ARRA funds, we analyzed data from FHWA’s FMIS
and identified the amounts of ARRA recovered and re-obligated recovered funds
by State. We further interviewed FHWA Office of the Chief Financial Officer
officials responsible for monitoring recovered funds and approving State
applications for the funds and reviewing related documentation. We also
interviewed FHWA and State officials in 9 of 43 randomly selected States based
on the amount of unobligated recovered funds, to understand the reasons why they
remained. We excluded the other States from our universe since they either did not
have unobligated recovered funds or we reviewed them separately for specific
issues that came to our attention. We also assessed FHWA’s $25 million annual
obligation authority limit on recovered funds by performing a legal review of
pertinent legislation, laws, and FHWA’s policy, supported with an analysis of data
obtained from FHWA’s FMIS.




Exhibit A. Scope and Methodol ogy
                                                                                 14




EXHIBIT B. RECOVERED ARRA HIGHWAY INFRASTRUCTURE
INVESTMENT GRANT FUNDS AND FUTURE OBLIGATION
AUTHORITY

                              Recovered ARRA             Authority to Obligate
                         Highway Infrastructure             Recovered ARRA
                       Investment Grant Funds          Highway Infrastructure
                            Not Obligated as of   Investment Grant Funds for
                            September 30, 2012       Fiscal Years 2013 – 2015
Alabama                           $ 1,316,367                    $ 1,403,019
Alaska                               1,260,312                        479,229
Arizona                              5,949,389                      1,425,597
Arkansas                                     0                        960,153
California                          22,987,190                      7,018,122
Colorado                                34,867                      1,103,217
Connecticut                          2,727,552                        824,982
Delaware                                     0                        332,745
District of Columbia                 1,526,883                        337,329
Florida                             11,528,521                      3,678,264
Georgia                              2,752,578                      2,544,390
Hawaii                                 825,749                        343,443
Idaho                                  122,776                        496,908
Illinois                             2,209,237                      2,555,334
Indiana                              7,537,288                      1,797,072
Iowa                                   245,269                        978,231
Kansas                                 269,932                        949,974
Kentucky                               776,237                      1,150,113
Louisiana                               27,684                      1,174,053
Maine                                  509,244                        357,117
Maryland                                     2                      1,177,263
Massachusetts                       20,667,616                      1,195,917
Michigan                             1,105,109                      2,313,924
Minnesota                            1,044,095                      1,371,861
Mississippi                          5,338,082                        968,403
Missouri                               173,683                      1,740,138
Montana                                      0                        578,460
Nebraska                             5,685,155                        643,452
Nevada                               6,600,660                        549,942


Exhibit B. Recovered ARR A Highw ay Infrastructure Invest ment Grant
Funds and Futur e Obligation Authorit y
                                                                                                    15


                                          Recovered ARRA                 Authority to Obligate
                                     Highway Infrastructure                 Recovered ARRA
                                   Investment Grant Funds              Highway Infrastructure
                                        Not Obligated as of       Investment Grant Funds for
                                        September 30, 2012           Fiscal Years 2013 – 2015
    New Hampshire                             $       8,296                      $    353,535
    New Jersey                                     11,362,809                          1,780,155
    New Mexico                                      3,284,167                            690,033
    New York                                        8,717,590                          3,060,864
    North Carolina                                  4,564,315                          2,008,905
    North Dakota                                    2,719,534                            464,658
    Ohio                                            4,724,781                          2,555,565
    Oklahoma                                                  0                        1,269,087
    Oregon                                          5,517,074                            911,970
    Pennsylvania                                         None                          2,803,431
    Rhode Island                                      311,083                            374,442
    South Carolina                                            0                        1,264,788
    South Dakota                                      969,086                            499,893
    Tennessee                                       1,556,016                          1,564,188
    Texas                                               57,207                         6,145,344
    Utah                                            1,029,171                            583,245
    Vermont                                           255,561                            343,566
    Virginia                                                  0                        1,896,744
    Washington                                      1,256,219                          1,344,435
    West Virginia                                   2,906,026                            575,889
    Wisconsin                                       2,492,931                          1,445,136
    Wyoming                                                   0                          430,488
             a
    Totals                                      $154,953,343                        $ 72,815,013
Sources: OIG analysis of FHWA data
a
  Totals include highway infrastructure grant projects, the focus of our report, and do not include ARRA
funding provided for the Puerto Rico Highway Program, the Territorial Highway Program, Highway
Surface Transportation and Technology Training, Construction of Ferry Boats, and several Federal Lands
Highway programs.




Exhibit B. Recovered ARR A Highw ay Infrastructure Invest ment Grant
Funds and Futur e Obligation Authorit y
                                                         16



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


Name                              Title

David Pouliott                    Program Director

Lorretta Swanson                  Project Manager

Stephen Gruner                    Project Manager

Cynthia Auburn                    Senior Analyst

Jack Burriesci                    Senior Analyst

Michael Masoudian                 Senior Analyst

Oleg Michalowskij                 Senior Analyst

Deborah Kloppenburg               Senior Auditor

Fritz Swartzbaugh                 Associate Counsel

Petra Swartzlander                Senior Statistician

Megha Joshipura                   Statistician

Andrea Nossaman                   Senior Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                                    17



           APPENDIX. AGENCY COMMENTS


                                                     Memorandum

Subject:   INFORMATION: Federal Highway                                           Date: July 31, 2013
           Administration (FHWA) Response to Office
           of Inspector General (OIG) Draft Report on
           Unexpended American Recovery and
           Reinvestment Act (Recovery Act) Funds

From:      Victor M. Mendez                                                         In Reply Refer To:
           Administrator                                                                     HCFM-1

To:        Calvin L. Scovel III
           Inspector General (J-1)

           FHWA Created Jobs and Stimulated Economy with Constructive Highway
           Investments

           The FHWA’s successful implementation of the Recovery Act resulted in 13,000 highway
           infrastructure investments that stimulated the economy and put Americans back to work.
           The OIG report projects $356 million in recovered funds, or about 1 percent of the $27.5
           billion FHWA received under the Act, could potentially remain unspent by the September
           2015 statutory deadline, in large part due to Federal restrictions specified by the Recovery
           Act that are not found in the regular Federal-aid highway program. As stewards of Federal
           funds, FHWA is using the full extent of its authority to ensure that States fully and
           effectively use Recovery Act funds for productive and prudent investments in the Nation’s
           highway infrastructure that contribute to economic growth and job creation.

           FHWA has Provided Effective Oversight of Recovery Act Funds

           The OIG report recognizes that FHWA’s actions with regard to these funds have been
           appropriate, as well as the extraordinary measures implemented to provide sound and
           effective oversight. The Recovery Act was funded through general fund appropriations. In
           accordance with the authorities provided by general fund appropriations, FHWA equitably
           distributed upward adjustment authority annually among States with qualifying upward
           adjustments. The FHWA’s upward adjustment approval process assured accountability for
           Recovery Act expired funding by requiring reviews at both the Division Offices and
           FHWA Headquarters. This two-tiered approval process provided thorough oversight to
           ensure that upward adjustments for individual projects under the Highway Infrastructure



      Appendix. Agency Comments
                                                                                             18


   Investment Account were within the scope of the original project and that States maintain
   sufficient Recovery Act de-obligation balances to use for upward adjustments.
   The FHWA created and provided weekly fund status reports that enabled the Agency,
   including senior leadership, to track Recovery Act funding at both the aggregate and
   individual project level. From the onset, FHWA actively encouraged States to prioritize
   expenditure of Recovery Act funds in the delivery of these infrastructure projects. The
   Agency regularly communicated with the States to emphasize the importance of
   prioritizing the use of Recovery Act funds to stimulate the economy within an accelerated
   timeframe.

   FHWA has Managed Unexpended Funds in Accordance with Statute and Guidance

   Neither the Office of Management and Budget Circular A-11 nor the Government
   Accountability Office’s (GAO) Principles of Federal Appropriations Law provide specific
   guidance on implementation of expired funds authority; however, GAO does note that such
   authority is discretionary. Specifically, GAO’s Redbook Volume I states that “during the
   5-year period, the expired account balance may be used to liquidate obligations properly
   chargeable to the account prior to its expiration.” The FHWA’s application of the $25
   million upward adjustment limit to the Recovery Act Highway Infrastructure appropriation
   account is a reasonable means of implementing Section 1553 of 31 United States Code (31
   U.S.C. 1553). In accordance with language within the statute that states “in the case of a
   fixed appropriation account,” FHWA applied the annual $25 million limit to the entirety of
   funds originating from the Recovery Act Highway Infrastructure appropriation account
   heading whether the adjustments were related to contract changes or other adjustments not
   associated with contract changes. Each State and individual program equitably received a
   share of the $25 million limit to make qualifying upward adjustments, provided sufficient
   de-obligation balances exist. The share of the upward adjustment limitation received by
   each State and program is proportional to the amount of Recovery Act funds received as a
   percentage of the overall Recovery Act appropriation.

   While we recognize that there may be alternative methods available to implement this
   discretionary authority, FHWA’s method has been effective and is in compliance with
   applicable guidance and statute. Had FHWA applied 31 U.S.C. 1553(c) to each sub-
   category within the Highway Infrastructure Investment Account and applied an annual $25
   million upward adjustment limit to each individual “program, project, or activity” as
   discussed in the OIG report, the potential decrease in projected unexpended Recovery Act
   funds would be immaterial. States received the vast majority of the Recovery Act’s $27.5
   billion via the Highway Infrastructure Investment Program, whereas other activities funded
   under the Highway Infrastructure Investment Account share totaled less than 3 percent.
   Many of the smaller subcategories, such as the Forest Highway or Refuge Roads, have
   either not used their proportional share of the existing $25 million upward adjustment limit,
   or have not needed and therefore not requested any upward adjustments. De-obligations
   associated with those activities total approximately $720,000. If sufficient qualifying
   upward adjustment requests existed to re-obligate the entire $720,000 balance, the amount
   of projected unexpended funds would decrease by less than 0.2 percent of OIG’s projected
   unexpended funds identified in the report. As a result, the potential cost effectiveness of



Appendix. Agency Comments
                                                                                               19


   this modification and its utility as a tool for reducing unexpended balances from the
   Recovery Act is not apparent.

   OIG Recommendations and FHWA Responses

   Recommendation 1: Revise FHWA’s August 26, 2010, policy regarding the treatment of
   recovered Recovery Act funds for upward adjustments to clearly state that (a) upward
   adjustments that do not constitute a contract change are not subject to the $25 million
   notification limitation, (b) pay claims and increases under escalation clauses are eligible for
   Recovery Act recovered funds, and (c) the $25 million limitation applies to the individual
   Recovery Act programs and not to the entire Recovery Act appropriations account.

   Response: Concur in part. As discussed earlier in this response, FHWA implemented a
   rational and reasonable interpretation of 31 U.S.C. 1553 in the absence of comprehensive
   guidance regarding how FHWA should implement expired funds authority. The fact that
   expired funds may be used to make adjustments to timely obligations or record new
   obligations does not mandate the use of expired funds for those costs. Nonetheless, FHWA
   established a prudent process to use expired funds to provide additional upward adjustment
   flexibility to its grantees while at the same time assuring accountability associated with
   such funding. Further, at this late stage of the Recovery Act, based on our analysis
   described above, there is limited material benefit in revising FHWA’s interpretation of 31
   U.S.C. 1553 regarding upward adjustments.

   The FHWA continues to prudently manage Recovery Act funds. As time has progressed,
   FHWA has modified the upward adjustment process as necessary to provide additional
   flexibility to States in completing infrastructure projects. The FHWA will continue to
   explore the implications of providing upward adjustments in excess of $25 million should
   the Agency, in working with the Department, decide such a policy decision is appropriate.

   The FHWA requests that OIG close this recommendation upon receipt of this response.

   Recommendation 2: Implement a process to obtain more complete data and determine
   more accurately how much recovered funding States need in excess of the authority FHWA
   has provided to obligate recovered funds.

   Response: Concur. The FHWA implemented a process to obtain more complete and
   accurate data from States regarding qualifying upward adjustments. Specifically, on May
   23, FHWA Headquarters requested Division Offices work with their States to submit all
   qualifying upward adjustments requests where sufficient de-obligation balances exist,
   regardless of pro rata upward adjustment limitations. On June 19, FHWA afforded States
   an opportunity to verify their requested upward adjustment amount. To date, we have
   received and approved $12.2 million in upward adjustments for Fiscal Year (FY) 2013.

   In response to the requests for information regarding States’ need for additional pro rata or
   plans to release their pro rata share, 24 States released a total of $6.26 million of Recovery
   Act upward adjustment ceiling for redistribution for FY 2013, 10 States did not request



Appendix. Agency Comments
                                                                                           20


   additional ceiling, and 18 States requested additional Recovery Act upward adjustment
   ceiling. The FHWA is evaluating options to address need for additional upward
   adjustments and will notify its Division Offices of any ability to make obligations for
   upward adjustments in excess of $25 million. In light of these actions, and FHWA’s intent
   to continue pursuing these options, we request that OIG close this recommendation upon
   receipt of this response.

                                          -- -- -- -- --

   The FHWA appreciates the opportunity to respond to the draft report. If you have any
   questions or comments regarding this response, please contact Juli Huynh, Director of
   Financial and Management Programs, at 202-366-6504.




Appendix. Agency Comments
